Katharine Van Dusen
D (415) 772-5712
kvandusen@coblentzlaw.com

January 9, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-001
Re:

Ehrman v. Cox Communications, Inc., S. Ct. No. 19-802

Dear Mr. Harris:
I am counsel of record for Respondent Cox Communications, Inc. (“Cox”) in the
above-captioned case. The petition for a writ of certiorari in this case was filed
December 16, 2019, and placed on the docket December 23, 2019. Respondent’s
opposition is due January 22, 2020. We respectfully request, under Rule 30.4 of the
Rules of this Court, a 30-day extension of that deadline to February 21, 2020.
The extension is necessary to permit Cox adequate time to consider and address the
petition, which is over 6,000 words long. I note that an extension in this instance is
particularly necessary because I, as counsel for Cox who argued the case before the
United States Court of Appeals for the Ninth Circuit, and who has the responsibility for
preparing the brief in opposition, will be lead counsel in a jury trial in the Superior Court
of Alameda County, California from January 17 through January 30. My preparation for,
and participation in, this two-week jury trial, significantly limits my availability through the
present deadline.
The proposed extension is unlikely to prejudice petitioner or affect the ultimate
disposition of this case.
Very truly yours,
COBLENTZ PATCH DUFFY & BASS LLP

Katharine Van Dusen
Counsel for Respondents
cc:

See Attached Service List

08277.055 4839-6572-1008.1

